                                Limited Official Use




                  Network Access, System Access, and
              Software Configuration Should Remain Part of
                the Computer Security Material Weakness

                                September 2004

                      Reference Number: 2004-20-158




  The Treasury Inspector General for Tax Administration (TIGTA) has designated
this audit report as Limited Official Use (LOU) pursuant to Chapter III, Section 2 of
      the Treasury Security Manual (TD P 71-10) entitled, “Limited Official Use
 Information and Other Legends.” Because this document has been designated
LOU, it may only be made available to those officials that have a need to know the
information contained within this report in the performance of their official duties.
  This report must be safeguarded and protected from unauthorized disclosure;
     therefore, all requests for disclosure of this report must be referred to the
           Disclosure Section within the TIGTA’s Office of Chief Counsel.




                                Limited Official Use
                                  Limited Official Use
          Network Access, System Access, and Software Configuration Should
               Remain Part of the Computer Security Material Weakness

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Richard T. Borst, Senior Auditor
Myron L. Gulley, Senior Auditor
Michael A. Howard, Senior Auditor
Bret D. Hunter, Senior Auditor
Mary Jankowski, Senior Auditor
Anthony Knox, Senior Auditor
Stasha Sue Smith, Senior Auditor




                                   Limited Official Use                                  Page 2
